Case No.

IN THE
SUPREME COURT OF THE UNITED STATES

IN RE CHAD ANTHONY RAY

PETITION FOR AN EXTRAORDINARY WRIT OF HABEAS CORPUS

CHAD ANTHONY RAY
#59011-177
F.C.I. LA TUNA
SATELLITE LOW P.O. Box 6000
ANTHONY. NM 88021

QUESTION PRESENTED

Federal marijuana laws are constitutional because marijuana is not a fundamental right.
Judicial review of these criminal laws has been rational basis, a political question. Petitioner is a
political prisoner. Marijuana laws are a political question because of ineffective assistance of
officers of the court.

1.

Whether "liberty" in the due process clause still means freedom from physical restraint
by government police power?

2.

Whether the operation and effects of the marijuana laws are an Article III case and
controversy?

3.

Whether being incarcerated is a substantial denial of Chad Anthony Ray's
constitutional right of liberty without compelling reasons for Congress to proscribe
marijuana as a dangerous substance, therefore without due process of law in
violation of Amendments IV and V of the Constitution of the United States and is
unconstitutional?

i

PARTIES TO THE PROCEEDING
Petitioner Chad Anthony Ray is in custody of the United States of America. He is incarcerated In
the Federal Corrections Institution, La Tuna, 8500 Doniphan Rd. Anthony, TX 79821. S. Hijar, is the
Warden.
PETITION FOR AN EXTRAORDINARY WRIT OF HABEAS CORPUS
Chad Antony Ray respectfully petitions for an extraordinary writ of habeas corpus.

DECISION BELOW
This petition for an extraordinary writ of habeas corpus is an original proceeding in this Court.
There is only one court proceeding directly related to this case. It is from the United States District
Court, District of Northern Texas. Ray v. U.S.A. Case No. 7:20-CV-049-0. The case caption is: Motion to
Vacate,

under 28 U.S.C. § 2255 Set Aside, or Correct a Sentence By a Person in Federal Custody. 28 U.S.

Code CHAPTER 153—HABEAS CORPUS. (A. 5) Judgment was 4/16/2021. Citations of the opinion and
order entered in this case is not known but the Court's Opinion and Order is attached. (A. 1)

STATEMENT OF JURISDICTION
Date

of Judgment of related case Ray v. U.S-A. Case No. 7:20-CV-049-0 was 4/16/2021. (A-l)

The statutory provision believed to confer on this Court jurisdiction to review an Extraordinary
Writ of Habeas Corpus are Title 28 U.S. Code §§§ 2241, 2242, 2243. (A. 13)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED (A. 13)
UNITED STATES CONSTITUTION

Article I, Section 9, Clause 2, The Privilege of the Writ of Habeas Corpus...
Article III Section 2. The Judicial Power shall extend to all Cases, in Law and Equity, arising under
this Constitution ... to Controversies to which the United States shall be a Party;
Amendment IV The right of the people to be secure in their persons, houses, papers and effects
against unreasonable searches and seizures, shall not be violated,..

1.

Amendment V. No person shall be ... deprived of life* liberty, or property, without due process
of law;
UNITED STATES CODE
28 U.S. Code CHAPTER 153-HABEAS CORPUS
§ 2241, (a) Writs of habeas corpus may be granted by the Supreme Court, any justice thereof, ..
(c)The writ of habeas corpus shall not extend to a prisoner unless .. .(3) He is in custody in
violation of the Constitution ...
§§§ 2242, 2243, 2255
STATEMENT OF THE CASE
The federal questions sought to be reviewed was first raised in the 2255 motion to vacate in
Ground One. (A. 8)

GROUND ONE: Mr. Ray is in custody in violation of Amendments IV and V of the
Constitution of the United States. He is being deprived of his constitutional right of
liberty, without compelling government reasons for Congress to proscribe marijuana,
therefore without due process of law.
In the district court's Opinion and Order, "Movant's ground is clearly one that could and should
have been raised on appeal." (A. 3). This federal question can not be raised for the first time on appeal.
The court declared Ground One was a "meritless argument." (A. 5)

Congress has the authority to regulate and criminalize marijuana under the Commerce
Clause. Gonzales v. Raich, 545 U.S. 1 (2005). Movant's counsel cannot have been
ineffective for failing to raise a meritless argument. Clark v. Collins, 19 F.3d 959,966 (5th
Cir. 1994).
Ground One was not raised in Gonzales v Raich 545 U.S. 1 (2005). Judicial review in this case was
by rational basis because of ineffective assistance of counsel. (A. 9 § 13)

ARGUMENT
LIBERTY: FREEDOM FROM PHYSICAL RESTRAINT

Being incarcerated is a substantial denial of Ray's inalienable, constitutional right of liberty,
freedom from unreasonable physical restraint. "Every person has a fundamental right to liberty..."
2.

Chapman v. United States, 500 U.S. 453,465. (1991). "The only cases that require a stricter standard of
review are those that involve an infringement of a right explicitly enunciated in the Constitution." United
States v. Kiffer, 477 F.2d 349, 352 (2d Cir. 1973). "One's right to life, liberty, and property,... may not
be submitted to vote; they depend on the outcome of no elections. I/Vest Virginia Board of Education v.
Barnette, 319 U.S. 624,638 (1943). "Criminal statutes, be subjected to the most rigid scrutiny... if they
are ever to be upheld, they must be shown to be necessary to the accomplishment of some permissible
[government] objective." Loving v. Virginia, 388 U.S. 1,11 (1967).
Amendment IV. 'The right of the people to be secure in their persons, houses, papers, and
effects against unreasonable searches and seizure shall not be violated: ..." This part has been referred
to the reasonableness of the law that authorized police power to seize Ray's person and deprive him of
his liberty. The constitutionality of the Controlled Substance Act, (21 U.S. Code § 801 et seq.)
proscribing marijuana as a dangerous substance "is without support in reason because the article,
although within the prohibited class, is so different from others of the class [heroin] as to be without the
reason for the prohibition." United States v. Carotene Products Co., 304 U.S. 144,153*54 (1938).

Amendment V. "No persons shall... be deprived of life, liberty, and property without due
process of Law." This application for habeas relief is about the "due process" of creating the law, the
substance of the law, the compelling reasons for United States' Congress to proscribe cannabis.

Criminal laws are an Article III case and controversy. Ray is being deprived of his constitutional
right of liberty by United States of America for violating a criminal law. (App. 6.) "[T]he case and
controversy limitation ... [ is an]... American institution of judicial review... for the preservation of
individual rights." Rescue Army v. Municipal Court 331 U.S. 549, 72 (1947). The constitutionality of
criminal laws is reviewed by strict scrutiny. Government "police power which trenches upon the
constitutionally protected freedom ... bears a heavy burden of justification... and will be upheld only
3.

if it is necessary and not merely rationally related, to the accomplishment of a permissible [government]
policy." McLaughlin v. Florida, 379 U.S. 184,196 (1964).

Ray is being illegally deprived of his liberty without compelling reasons for Congress to proscribe
marijuana as a dangerous substance, therefore without due process of law contravening Amendments
IV and V of the Constitution of the United States. Rational, political police power enforcing criminal laws
is beyond the constitutional limitations of Amendments IV and V. Laws that authorize government
police power are either reasonable or unreasonable.

This writ for habeas relief is for the court to determine whether an Act of Congress of the United
States had compelling reasons, government interest, to proscribe marijuana as a dangerous substance, a
drug crime and deprive Ray's liberty, freedom from physical restraint, federal custody.

Due process of law requires the government to provide facts that marijuana is a noxious,
deleterious, dangerous plant to be a federal controlled substance. There are no compelling reasons
based on fact. Just deprivation of liberty under the color of law.

"The validity of regulatory measures may be challenged on the ground that they
transgress the Constitution, and thereupon it becomes the duty of the court, in the
light of the facts in the case, to determine whether the regulation is reasonable and
valid or essentially unreasonable, arbitrary and void." Norfolk & W.R. Co. v Public Service
Commission of West Virginia 265 U.S. 70, 74 (1924)
The marijuana law he was convicted of (A. 6) is an Article III case and controversy. Judicial
review of criminal laws is strict scrutiny. Without compelling reasons, proscribing marijuana as a
dangerous controlled substance by the United States Congress was unconstitutional.

COMPELLING REASONS FOR GRANTING THE WRIT
Exceptional Circumstances Warrant the Exercise of This Court's Original Habeas Jurisdiction

4.

By declaring the argument of Ground One of the 2255 motion to vacate as "meritless", the
District Court denied Certificate of Appealability, standing. The District Court decided/ignored an
important federal question presented by Ground One in a way that conflicts with relevant decisions and
should be settled by this Court. The District Court declared being incarcerated is not a substantial denial
of Petitioner's constitutional right of liberty, freedom from unreasonable physical restraint. The District
Court is continuing the systemic treatment of the marijuana laws, criminal laws, as a political question
and not as an Article III case and controversy. (A. 9, § 13). Political, rational police power is repugnant to
Amendment IV and V.

This shows that exceptional circumstances warrant the exercise of the Court's discretionary
powers, and that adequate relief was not obtained from the district court and was prejudicial.

CONCLUSION

This court should award the extraordinary writ of habeas corpus forthwith or issue an order
directing the respondent to show cause, compelling reasons to proscribe marijuana as a dangerous
substance, to justify why the extraordinary writ of habeas corpus should not be granted. § 2243.

Respectfully submitted,

Dated:

CHAD ANTHONY RAY*''
#59011-177
F.C.I. LA TUNA
SATELLITE LOW P.O. Box 6000
ANTHONY, NM 88021

5

